<html>
<title> - [H.A.S.C. No. 111-174]FLEET READINESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-174]

                            FLEET READINESS

                               __________

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                          MEETING JOINTLY WITH

           SUBCOMMITTEE ON SEAPOWER AND EXPEDITIONARY FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 28, 2010



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  61-771                   WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  









                       SUBCOMMITTEE ON READINESS

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland     CHARLES K. DJOU, Hawaii
BOBBY BRIGHT, Alabama
JOHN GARAMENDI, California
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia
               Vickie Plunkett, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Katy Bloomberg, Staff Assistant
                                 ------                                

           SUBCOMMITTEE ON SEAPOWER AND EXPEDITIONARY FORCES

                   GENE TAYLOR, Mississippi, Chairman
SOLOMON P. ORTIZ, Texas              W. TODD AKIN, Missouri
JAMES R. LANGEVIN, Rhode Island      ROB WITTMAN, Virginia
RICK LARSEN, Washington              ROSCOE G. BARTLETT, Maryland
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine
MARK S. CRITZ, Pennsylvania
                  Will Ebbs, Professional Staff Member
               Jenness Simler, Professional Staff Member










































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, July 28, 2010, Fleet Readiness........................     1

Appendix:

Wednesday, July 28, 2010.........................................    33
                              ----------                              

                        WEDNESDAY, JULY 28, 2010
                            FLEET READINESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Subcommittee on Readiness..............................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Subcommittee on Readiness......................................     1
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Subcommittee on Seapower and Expeditionary Forces..............     4
Wittman, Hon. Rob, a Representative from Virginia, Subcommittee 
  on Seapower and Expeditionary Forces...........................     4

                               WITNESSES

Harvey, Adm. J.C., Jr., USN, Commander, U.S. Fleet Forces 
  Command; accompanied by Vice Adm. William Burke, USN, Deputy 
  Chief of Naval Operations for Fleet Readiness and Logistics, 
  and Vice Adm. Kevin McCoy, USN, Commander, Naval Sea Systems 
  Command........................................................     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
      Member, Subcommittee on Seapower and Expeditionary Forces..    43
    Forbes, Hon. J. Randy........................................    41
    Harvey, Adm. J.C., Jr., joint with Vice Adm. William Burke 
      and Vice Adm. Kevin McCoy..................................    46
    Ortiz, Hon. Solomon P........................................    37
    Taylor, Hon. Gene............................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    53

Questions Submitted by Members Post Hearing:

    Mr. Ortiz....................................................    57
 
                            FLEET READINESS

                              ----------                              


    House of Representatives, Committee on Armed Services, 
Subcommittee on Readiness, meeting jointly with Subcommittee on 
 Seapower and Expeditionary Forces, Washington, DC, Wednesday, 
                         July 28, 2010.

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
        FROM TEXAS, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Ortiz. The subcommittee will come to order. Today, the 
Readiness and Seapower and Expeditionary Forces Subcommittees 
meet to hear testimony on issues affecting the readiness of the 
non-nuclear fleet.
    I want to thank our distinguished witnesses from the 
Department of the Navy for appearing before the subcommittee 
today.
    Admiral Harvey, as you note in your prepared statement, you 
and your colleagues are here today because the Surface Force's 
overall readiness trends remain in the wrong direction. When 
the Navy Board of Inspection and Survey in April of 2008 deemed 
the USS Chosin and the USS Stout unfit for combat operations 
because of their material readiness condition, it confirmed the 
subcommittees' concern regarding the readiness of the Surface 
Force.
    The Readiness Subcommittee in March, 2009, examined issues 
the Navy faces in sustaining its Surface Force ships for their 
expected service life and beyond. The Navy reported at that 
hearing that it had begun taking steps to address gaps in ship 
maintenance funding and to address material conditions through 
a pilot program of technical inspections.
    Since last spring, however, other reports and incidents 
have come to the subcommittees' attention that once again raise 
the issue of whether the Navy can achieve, let alone extend, 
the design service life of its Surface Force ships. These 
reports and incidents call into question the ability of the 
surface fleet to accomplish assigned missions. Concerns range 
from quality assurance issues affecting the USS San Antonio, 
the lead ship in the new LPD [Landing Platform Dock] class of 
amphibious transport docking ships, to the conclusion of a 
Fleet Review Panel that Surface Force readiness has degraded to 
a point that it is well below acceptable levels to support 
reliable, sustained operations at sea.
    The subcommittees today will examine the factors that 
appear to have contributed to these concerns. These factors are 
wide-ranging in nature and comprehensive in impact, from 
manpower and manning to funding, training, equipping, command, 
and control culture.
    We also will address what steps the Navy has taken to move 
from a period of degraded readiness where, as you noted, 
Admiral Harvey, commanders were allowed to operate and maintain 
their ships below established standards, back to a Navy that 
fulfills our sailors' expectations regarding their deployment 
readiness--where effectiveness is more important than 
efficiency.
    Our witnesses today are Admiral John Harvey, Commander, 
Fleet Forces Command; Vice Admiral William Burke, United States 
Navy, Deputy Chief of Naval Operations, Fleet Readiness and 
Logistics; and Vice Admiral Kevin McCoy, Commander, Naval Sea 
Systems Command.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 37.]
    Mr. Ortiz. The chair now recognizes the distinguished 
gentleman from Virginia, Mr. Forbes, the ranking member of the 
Readiness Subcommittee, for any remarks that he would like to 
make.
    Mr. Forbes.

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
      VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Forbes. Thank you, Mr. Chairman, and thank all you 
gentlemen for your service to our country and for being here 
today. We are having this hearing today because it has become 
wholly evident that decisions driven by near-term budget 
pressures have resulted in long-term impacts to the fleet.
    This committee has consistently warned of the risk 
associated with Navy's resourcing decisions over the last 
several years. Despite those warnings and efforts to get the 
Department of Defense [DOD] to consider long-term requirements, 
the trend of declining readiness is undeniable. Some may think 
we ask for things like the 30-year shipbuilding plan, the 
annual report on China, and the Quadrennial Defense Review 
[QDR] because we just need a few more reports to read each 
night. In fact, we legislated the specific requirements to 
these plans and reports because we consistently see the 
Department taking a rather myopic view when it comes to 
resourcing decisions. We live in a world where fiscal restraint 
is a national security imperative. The problem is that the DOD 
has taken a view that fiscal restraint means they take actions 
that are contrary to their own best interest.
    Admiral Harvey, I appreciate you coming before the 
committee today. And I am looking forward to your oral 
testimony and the rest of today's discussion. But for the sake 
of those that don't have a copy of your written testimony 
before them, I would like to take just a second to highlight 
some of the things you provided in your written submission to 
the committee.
    You note that risk to the Navy is ``moderate, trending to 
significant,'' and that your investigation into the related 
readiness issues found that ``the cumulative impacts of cost-
cutting decisions made over the last two decades had begun to 
degrade Surface Force readiness.'' You go on to note that 
``these trends were 20 years in the making and will take 
constant pressure over time to resolve.''
    Admiral, this is exactly why we ask for plans that contain 
a 20- to 30-year outlook. Instead, oftentimes the reports we 
get are somewhat narrowly focused and they fail to identify the 
long-term consequences of the decisions that are being made. 
The problems we are talking about today are problems which 
result from a QDR that fails to look out 20 years and, instead, 
focuses on the here and now.
    The Navy chose to substantially short-change sustainment 
and manpower accounts in order to extract savings to pay for 
procurement and modernization efforts. The culmination of 
several resourcing decisions over time has reduced the skills 
of our sailors and significantly reduced the surface life of 
the ships we were counting on for decades to come. This is the 
equivalent of saving up to buy a nice, fancy new car, knowing 
all the while that you won't be able to afford to change the 
oil or rotate the tires.
    The budgeters in the Department seem to just push those 
expenses outside the 5-year budget cycle and hope that someone 
else will come along and fix the problem. The problem with that 
approach is that there is no magical cash cow outside the FYDP 
[Future Years Defense Plan]. Year 6, year 7, year 8, even year 
20, are likely to be just as constrained as year 2. But no one 
inside the DOD seems to be willing to admit that, and no matter 
how hard we try, we can't seem to get them to acknowledge the 
obvious, much less put a plan in place to deal with it.
    So we now find ourselves with several bills to pay--bills 
to cover corrosion and ship repairs because preventive 
maintenance actions were not done or were deferred; bills to 
cover end-strength requirements to reestablish the cadre of 
experienced enlisted sailors and instructors; and bills to 
cover critical parts shortages and tools that were at one time 
deemed to be ``excess requirements.''
    I don't know what that bill is. I haven't seen it. But I 
can guarantee my colleagues it is going to cost the taxpayers a 
lot more than it would have if we would have just resourced 
those readiness needs in the first place.
    Mr. Chairman, I don't know what it is going to take for all 
of us to realize that we have got to develop a reasonable long-
term approach that balances sustainment with the need for 
modernization and recapitalization.
    Gentlemen, I know you are good men. You have served your 
country well. And we want to come together and try to find a 
partnership of how we can just make sure that we are moving our 
Navy forward in the direction that is going to guarantee the 
safety and defense of our country.
    Thanks for taking time to be with us today.
    Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 41.]
    Mr. Ortiz. The chair recognizes my good friend, the 
chairman of the Seapower Subcommittee, Mr. Taylor, for his 
remarks.

     STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
      MISSISSIPPI, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                      EXPEDITIONARY FORCES

    Mr. Taylor. Thank you, Mr. Chairman. With your permission, 
I am going to submit a statement for the record.
    Mr. Ortiz. No objection. So ordered.
    Mr. Taylor. Mr. Chairman, I want to thank you so much for 
having this hearing. I think everyone here shares the same 
goal, and that is a 313-ship Navy that is fully capable of 
defending our Nation for years to come. The Navy has been given 
the additional mission of providing our Nation's national 
missile defense. So it is particularly troubling when there are 
headlines in the Navy Times about the Aegis radar systems being 
inoperable or at less than optimum use. There are a lot of 
things that are causing this.
    The two sailors who were apprehended in Afghanistan this 
week are a painful reminder of the demands being made on the 
Navy for things that are not normally their mission and the 
need for individual augmentees to go help the Army and the 
Marines in their missions in Afghanistan, often taking people 
away from what we train them to do, which really causes two 
problems. It puts them in a position where they are not fully 
trained for the mission in Afghanistan; but it also takes 
someone who is trained to be manning a radar, someone who is 
trained to be a hull technician, and takes them away from the 
ship where they need to be, with the result of less-than-
operable ships.
    If we are going to get to 313 ships, we have to have ships 
that last for 30 years. And, with optimal manning, we have seen 
crew sizes reduced to a point where maintenance is not getting 
done, electronics are not being repaired in a timely manner. 
And the other shortsighted cost-saving attempt was buying 
spares, which means that they weren't there when the ships 
needed them to replace the parts that are worn out.
    So I hope we will get some answers today from our panel in 
front of us. We, obviously, have some challenges. But I think 
we all share the same goal of a 313-ship Navy--a Navy that 
continues to be the world's greatest for decades to come.
    I yield back.
    [The prepared statement of Mr. Taylor can be found in the 
Appendix on page 40.]
    Mr. Ortiz. The Chair recognizes the distinguished gentleman 
from Virginia, Mr. Wittman, for any remarks that he would like 
to make.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
       SUBCOMMITTEE ON SEAPOWER AND EXPEDITIONARY FORCES

    Mr. Wittman. Thank you, Mr. Chairman. I will begin by 
asking for unanimous consent to entering Ranking Member Akin's 
remarks into the record.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 43.]
    Mr. Ortiz. So ordered. And now we are going to proceed with 
your statement, Admiral Harvey.
    Mr. Wittman. Just for a moment. I wanted to thank the 
admirals for joining us today. We appreciate your dedication 
and your service to our Nation. As you know, I think all of us 
here believe that there are some significant challenges out 
there ahead for the Navy; that operational capability concerns 
us all. As you know, the term ``A<INF>o</INF>'' [Operational 
Availability] means a lot to a lot of people up and down the 
line. And that operational capability, as we see today, is 
something that is critical and something that we absolutely 
have to address, just as Chairman Taylor said.
    As we look at the number of ships we have, those ships that 
are in service, the needs that those ships have as far as 
needing maintenance is of considerable concern to us, 
especially as we look at the challenges that we face around the 
world. And if you look at our Naval force structure, I think 
all of us believe that there are many areas where the demand 
far exceeds the capability to meet that demand. And that is 
becoming more and more of an issue, more and more of a concern 
for us.
    As you know, there are only a certain number of dollars to 
go so far; and that is where we need to really be focusing this 
discussion, is to say within that context, let's get back to 
the basic element of what is strategically needed for this 
Nation.
    And I realize, ultimately, budgets do drive things, but 
they ought to drive things in a reverse order. This body ought 
to have before it the full need of what the Navy has before it, 
whether it is maintenance of the ships it has, the ships we 
need to be constructing in the future, and then make sure that 
we put those in context of the decisions that need to be made. 
And that is, I think, more critical than ever these days: to 
make sure that strategy decides our decision-making, not having 
budgets drive our decision-making.
    I realize budgets are a reality, but I think if we look at 
the challenges around the world that the Navy faces in its 
needs, ``We have got a lot to do, and a short time to get 
there,'' as the old saying goes.
    So I appreciate your commitment. I look forward to your 
testimony today and look forward to your insights as to how we 
can make sure that the readiness of our non-nuclear surface 
fleet is where it needs to be. And that, I think, is critical 
as we go forward.
    So, Mr. Chairman I thank you, and I yield back.
    Mr. Ortiz. Thank you. Like I have always stated, we belong 
to the same team. And in order for this subcommittee or for the 
full committee to be able to help you, not that you haven't 
been candid in the past, but we need you to be candid with us 
and tell us exactly how we can help you; what is wrong, what 
can we do, how can we help?

STATEMENT OF ADM. J.C. HARVEY, JR., USN, COMMANDER, U.S. FLEET 
 FORCES COMMAND; ACCOMPANIED BY VICE ADM. WILLIAM BURKE, USN, 
   DEPUTY CHIEF OF NAVAL OPERATIONS FOR FLEET READINESS AND 
LOGISTICS, AND VICE ADM. KEVIN MCCOY, USN, COMMANDER, NAVAL SEA 
                        SYSTEMS COMMAND

    Mr. Ortiz. Admiral, whenever you are ready, sir.
    Admiral Harvey. Thank you, sir.
    Chairman Ortiz, Chairman Taylor, Representative Forbes, 
Representative Wittman, members of the Readiness Subcommittee 
and the Seapower and Expeditionary Forces Subcommittee, I do 
appreciate this opportunity to discuss the number one issue I 
face every day, which is the readiness of our fleet, and in 
particular the readiness of our surface fleet. And I would ask 
that my previously delivered written statement be entered into 
the record, sir.
    Mr. Ortiz. No objection. So ordered.
    Admiral Harvey. Thank you, sir. To your comment about being 
on the same team, there has never been a doubt in my mind. And 
that was proven last night with the vote taken here that will 
move the funding to where we need it desperately in this year 
to keep going on many of the corrective measures we have put in 
place to deal with the issues that all of you have just 
remarked upon in your opening statements. So I do thank you on 
behalf of the sailors and Fleet Forces Command for the actions 
last night in approving that funding bill.
    Readiness is my top issue every day. And, in my view, there 
are four components of a ready force: sufficient numbers of 
high-quality people; well-maintained and ready equipment; units 
that are properly supplied; and effective training programs.
    I believe the first component is the most important. 
Readiness begins and ends with high-quality sailors. And we 
risk our ability to retain high-quality sailors if we do not 
provide them with the tools, the training, and the time 
required to deploy, confident in their ability to accomplish 
their assigned missions.
    Our Navy, our deployed surface force, is ready today. Our 
response to Haiti, while continuing all the other missions we 
are currently executing around the globe, is not the hallmark 
of an unready force.
    But some key readiness trends are certainly in the wrong 
direction, as highlighted by unsatisfactory and degraded Board 
of Inspection Survey results over the last few years. These 
trends, as you have commented upon, sir, were 20 years in the 
making and will not go away overnight. But if not turned around 
through a determined and steady process, they will impact our 
ability to sustain today's high operational tempo into the 
future and ensure today's fleet can reach its expected service 
life; which is precisely why Admiral Willard, then the 
Commander of the Pacific Fleet, and I established the Fleet 
Review Panel, to determine the facts and identify the root 
causes behind the trends we were experiencing with our Surface 
Force.
    We chose Vice Admiral (Retired) Phil Balisle to lead this 
panel because of his extensive operational and command 
experience at sea, as well as service to shore in positions of 
significant responsibility with respect to the sustainment and 
maintenance of the fleet. He had the background necessary to 
determine the facts and the determination to follow the facts 
wherever they led. In our view, he had the credibility, 
independence, and experience to take a long, deep look at the 
problem across the entire manned, trained, and equipped 
spectrum.
    Admiral Balisle gave us a good sight picture of what had 
happened over time. We let the effort to generate execution-
year savings, year after year, overtake our culture of 
operational effectiveness, and he confirmed much of what we 
needed--Admiral Willard and I, now Admiral Walsh and I--what we 
needed to go and do, which we have gone and are doing.
    A constant undercurrent within the negative trend lines of 
our Surface Force readiness was the unreliable performance of 
USS San Antonio. The LPD-17 class represents Navy's strong and 
enduring commitment--strong and enduring commitment--to 
expeditionary operations, power projection, and strategic 
engagement. This ship is extremely important to the future of 
the Navy and Marine Corps team. We had to find the facts behind 
recurring problems with her propulsion plant and put a 
corrective plan in effect as soon as practicable. We have done 
so. The plan is in execution, and our lessons learned are being 
applied to the other ships of this class. With the completion 
of the Fleet Review Panel report and the San Antonio 
investigation, we now have a clear sight picture of the root 
causes behind the negative readiness trends we have observed in 
our Surface Force.
    With regard to the Littoral Combat Ship, the LCS, I believe 
it is critical that we, Navy, adapt to the LCS, and we do not 
force the LCS and her crews to adapt to an institutional fleet 
model. We must be more forceful to ensure we do not expect this 
ship to be a destroyer. It was designed, built, and manned to 
specific littoral missions, and is not meant to run with a 
carrier strike group in blue water over an extensive period of 
time. We deployed her essentially 2 years early to greatly 
accelerate our learning curve with this ship, which was built 
with research and development funds. It was a brilliant move by 
our CNO [Chief of Naval Operations].
    I see tremendous opportunities for this ship if we truly 
take the time to learn and then act deliberately on the facts 
we determine. Quickly transitioning LCS to the fleet and 
getting our ships to expected service life are critical to 
growing our fleet, as you have stated. We have to learn to man 
our fleet with about 324,000 sailors, which I believe, based on 
my 2\1/2\ years as the Chief of Naval Personnel, is about the 
right number for the fleet size we are attempting to achieve.
    But I also know we still need to work the distribution of 
our people to ensure we get the ``train and maintain'' piece 
correct; in particular, properly manning our optimally manned 
ships and creating the billets ashore to reestablish a seashore 
flow between ship and intermediate-level maintenance 
organizations to develop the skilled, experienced petty 
officers and chief petty officers we must have.
    So we will arrest the negative trends. We will redistribute 
manpower. We will target resources at root causes to get 
maximum impact. And we will sustain our efforts over time to 
get our ships to service life. We will stay on it.
    And I would certainly be happy to respond to any questions 
you may have, sir.
    Thank you.
    Mr. Ortiz. Thank you.
    [The joint prepared statement of Admiral Harvey, Admiral 
Burke, and Admiral McCoy, can be found in the Appendix on page 
46.]
    Mr. Ortiz. I have some questions that I would like to begin 
with. My first question will be, Why didn't the Navy understand 
the overall--the big, big-picture impact of the incremental 
changes that were made over the past two decades in the name of 
efficiency and cost-cutting? And does the Navy have enough 
people to correct Surface Force ship manning and reverse 
degraded readiness?
    Is there any truth to a recent Navy Times report that the 
Navy could cut as many as 25,000 sailors and officers from its 
ranks over the next few years?
    And I know I am asking too many questions at the same time, 
but you take time to respond. What budgetary changes have been 
made and what programmatic changes are being considered to 
address the man-train-equip issue cited in the report?
    Admiral Harvey. Yes, sir, you did ask a few questions 
there, but I will get at them the best I can. First, and to the 
most important one because of the potential impact it has on 
our sailors today.
    I know of no plan, I know of no planning in place to cut an 
additional 25,000 sailors from today's fleet. I have just 
testified to the fact that I think around 324,000 sailors is 
the right number for 313 ships. I would react strongly to any 
plan that would take us an additional 25,000 sailors below 
that. I find that a statement that, wherever it was attributed 
to, to be wildly off the mark.
    To your second question in terms of manning. Again, I think 
it is based on a distribution issue, sir. We have taken steps 
today, in the recent past, to improve our manning on the LPD-17 
class with the lessons we learned from the JAGMAN [Judge 
Advocate General Manual] investigation that I ordered. We have 
redistributed manning today onto our LSDs and our LHAs in the 
engineering department. We have done that today. We have a plan 
to continue this redistribution through fiscal year 2011, and a 
larger plan for redistribution in 2012 and out, which is under 
discussions now as part of the building of the POM [Program 
Objective Memorandum] 2012.
    So we are taking steps, sir, to effect that redistribution 
that you just talked about. I think that we can execute those 
steps, not based on wishful thinking, but based on what I 
learned during my time as Chief of Naval Personnel and things 
that are within the Navy's power to do. So I think we can move 
forward in that, and we are moving forward right now, to 
achieve those goals.
    As to the larger question you asked, Well, how did it all 
happen? I certainly have been part of this for the last--I have 
been a flag officer for 10 years. I was promoted in December of 
2000. Very intimate with many of the details that we are 
talking about here. And I see my own experience as kind of 
indicative of what may have happened in the larger sense.
    I think in the surface fleet in particular, we got very 
focused on what can we do this year to save money, and we were 
not focused on what do we get out of the long haul from all 
this. In my experience in Fleet Forces Command, I have seen a 
much stronger governance model in our submarine force and in 
our aviation force. I think it is particularly because the 
results of failure are so much higher. A plane will come out of 
the sky, a submarine will not surface if we don't get it 
exactly right. And so that intensity that grows from those kind 
of results was missing in our review, I suspect, of surface 
fleet changes that were made over time.
    We also were very, very focused on meeting operational 
demand, as Representative Wittman has discussed, and I think 
that focus on meeting the A<INF>o</INF>, getting out there and 
answering every combatant commander demand for the surface 
ship, today we have 60 percent of your fleet is underway; 43 
percent of your fleet is forward deployed. Those figures are 
unprecedented in my experience. And we have sustained that 60 
percent or above figure for over a month. Routinely, we have 
been deploying over 50 percent of the fleet underway every day. 
So we have really been focused on the A<INF>o</INF> and not 
focused enough on the implications of what meeting that 
A<INF>o</INF>, that operational demand from the combatant 
commanders, needed day after day, month after month, year after 
year.
    The trends we see now in our INSURV [Board of Inspection 
and Survey] reports, that started the ball rolling. We now have 
a really good sight picture of what we have to do. And I feel 
that with the sustained funding that we saw in fiscal year 
2010, that we have submitted fiscal year 2011, and will be part 
of the 2012 POM bill, I think if we maintain that funding, 
continue the redistribution plans that we have recommended, I 
think we can go a long way towards arresting those trends and, 
just as importantly, ensuring the fleet gets to its expected 
service life and make that 313 number a reality.
    Mr. Ortiz. You mentioned that what we need to do is to be 
sure that we have sufficient personnel to man those ships. If 
we are going to extend the life of these ships, we cannot, in 
my opinion, cut corners. We need to be able to maintain it and, 
like I say, to supply it.
    In the past, we have had testimony that we don't think we 
have enough personnel on the ships. I don't know whether 
through your experience and learning from past experiences if 
you were able to come up with the same conclusion that we need 
more personnel so that we can, in an efficient way, do what we 
need to do to extend the life of the ships.
    Admiral Harvey. Yes, sir. We are putting more people onto 
these ships. We will put more into the fire controlmen on our 
destroyers and cruisers, our enginemen on LSDs and LPDs, and 
machinist mates on our LHDs and LHAs. But it is a 
redistribution of those sailors that we already have within the 
larger 324,000.
    Also, one of the important things that I think was lost 
along the way is, as all these initiatives were going down 
their own tracks, each of these initiatives, whether it was in 
the manning world, in the maintenance world, or the resourcing 
world, all of them were based upon certain assumptions coming 
true. And when the assumptions didn't fully come true, the plan 
didn't change. We continued. And so I see that as really at the 
heart of the matter. Optimal manning depends upon a vigorous 
shore support capacity. We were down this road before.
    I was in the commissioning crew of USS McInerney, FFG-8, 
back in 1978 and 1979. A minimally manned ship. Not an 
optimally manned ship. A minimally manned ship. We showed up in 
Mayport, Florida, and I took the work package over to the shore 
intermediate maintenance activity, as it was supposed to be 
done. I was laughed out of town and told, ``Hey, that's your 
problem, Harvey. Get on it.''
    We did not fulfill the assumption that a minimally manned 
ship needed significant additional help to do the fundamental 
maintenance. We didn't get it right then. And I don't think we 
got it right now on the shore support piece. That is why we are 
so focused on the LCS. We can't afford to get that wrong.
    Mr. Ortiz. Now, we also wondered, you know, about--we are 
seeing now more Navy boots on the ground in Afghanistan and 
Iraq. I don't know how many numbers are there, but this has 
taken away from doing the job, like Chairman Taylor stated a 
few moments ago. Do you have any idea how many boots on the 
ground we have in Iraq or Afghanistan?
    Admiral Harvey. As of today, we have about 6,500 sailors on 
an individual augmentee [IA] assignment in Afghanistan and 
about 2,300 left in Iraq.
    Mr. Ortiz. Could this be one of the reasons why you need 
more people to be able to operate and maintain the ships?
    Admiral Harvey. Certainly those are sailors who, if they 
weren't in Afghanistan or Iraq, would be doing something, not 
all of them on ships. Many of them are in skill sets that come 
out of the shore establishment.
    Admiral McCoy has a significant number of engineering duty 
officers that are performing important jobs there. We have 
senior supply corps officers doing important jobs in 
contracting to maintain control of all those funds that are 
going over there.
    So I can say it is not a reason. If someone says that is 
bringing us down, I would disagree with that. I know the 
impact. I know where those IAs come from, which ships we bring 
them from. We have increasingly, over time, put safeguards in 
place to ensure we don't take them from certain ships that are 
already in a manning-constrained environment.
    So, yes. Does it make the daily job tougher for some ships, 
for some sailors, for some squadrons? Absolutely. But it is an 
important mission for the war. And some of those are missions 
that only our sailors can do. And so when faced with the 
greater good, I think the Navy has made exactly the right 
choice. And I stand up in front of our sailors every day and I 
tell them as long as those conflicts are going, we are going to 
have IAs over there. We are where we are. They are doing a 
vital mission and they are a large part of the progress we have 
made. I am proud of what they have done. I expect it to 
continue. But I don't see that as the reason that I would say 
is bringing any unit to its knees in terms of sustaining that 
IA effort, sir.
    Mr. Ortiz. And I am just going to have the last question, 
short. Going back and looking as to what maybe went wrong, did 
you find that the people who were building these vessels 
supplied the best material? Did you find any material used to 
build the ship was inferior?
    Admiral Harvey. I think I will defer to Admiral McCoy on 
that question, sir. He has a far better picture of that aspect 
of the LPD-17 issue than I do right now.
    Mr. Ortiz. Admiral.
    Admiral McCoy. Thank you very much, Mr. Chairman. To 
address your question.
    Mr. Ortiz. My question was, going back and looking at some 
of the experiences in the back, a few years back, and why they 
are deteriorating. Were there any facts that maybe the material 
used to construct these ships were inferior; were not the top-
quality material that should be used?
    Admiral McCoy. Mr. Chairman, no, sir. In terms of the basic 
materials and components, we did not find that they were a 
contributor. What we did find was the fundamental construction 
processes used by the shipbuilder, for example, on the LPD-17 
class, the fundamental government oversight at the supervisor 
shipbuilding, and then some sub-optimized system designs were 
responsible for the failures, principally on the LPD-17 class 
main engines and on the piping systems.
    Mr. Ortiz. I am going to yield to my good friend, Mr. 
Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    As the chairman mentioned, we appreciate so much you being 
here. We view this as a team. But, Admiral Harvey, I will tell 
you, oftentimes my frustration is I think we are viewed as a 
team when it comes to appropriating money to spend, but we are 
not always viewed as a team when it comes to sitting down and 
looking at the choices we have for the long-term consequences 
of where those dollars are--effects they are going to have down 
the road.
    We appreciate the three of you. You are the guys we have 
got at the table today, so we are not pointing fingers at any 
particular person. But we don't have the luxury of going over 
to the Pentagon, walking down halls and stopping in people's 
offices and saying, ``What assumptions are you basing this 
on?''
    One of the things that is so frustrating to us is, Admiral, 
as you mentioned, you said, ``The projections are based on 
assumptions. And when assumptions do not come true, the outcome 
is not obtained.'' Over and over again, we are trying to get at 
those assumptions. And we just feel like we just get 
stonewalled in trying to find out what are the assumptions so 
we can look at those long-term impacts.
    Admiral Burke, last week we were talking about the modeling 
and simulation capability that we have. You told us at that 
time that the models were fully accredited and enabled the Navy 
to project resourcing requirements based on a desired level of 
readiness.
    Can you tell us how those models will be used to improve 
the forecasting and long-range resource management for the Navy 
and how we can get at being able to understand those models 
better so we can do just what Admiral Harvey was suggesting--
look at the assumptions to see if the assumptions have some 
common sense to them and will work?
    Admiral Burke. Sir, let me try. Mostly, we are talking 
about ship maintenance, oh let me start with that. The ship 
maintenance model is a set of spreadsheets and databases, and 
it is designed to program and budget for depot and intermediate 
maintenance for our ships and submarines. It has a variety of 
inputs. Those inputs are the force structure, the class 
maintenance plan, fleet depot maintenance schedule, material 
and labor costs, and workload standards. So those inputs are 
critical. And what you get out is determined by what you put 
in. And what we put in in the past is a class maintenance plan 
that has not had a view for long-term maintenance to get at 
expected service life.
    So that is what Admiral McCoy's guys have been working on 
for the DDG-51 class and the LSD-4149 in preparation for the 
2012 budget. They have revised that class maintenance plan. So 
that will now be--and I will let him talk about this some 
more--but that is now designed to get at long-term expected 
service life of these ships--long-term maintenance to get to 
the expected service life. The output of this model is a 
workload by location; the cost; and a backlog, if you don't put 
enough money into it.
    The other thing that Admiral McCoy's guys are working on is 
the class maintenance plan is a notional class maintenance 
plan. So it tells you what the DDG-51--what is needed in the 51 
to get it to expected service life, that long-term maintenance 
that we had to some degree lost our way on, to what Admiral 
Harvey was talking about, where we are trying to make sure the 
ships are able to get underway. The focus was on getting 
underway. We needed somebody to focus on what it takes to get 
the ships to expected service life. That is what NAVSEA [Naval 
Sea Systems Command] is doing. And that is what they have done 
with this review of the class maintenance plan.
    The other piece of this is how do you know what the 
specifics are on that ship--on DDG-55, for instance--that are 
different from the notional. That is another piece of what 
Admiral McCoy's folks are working on. And there is a plan to 
get through all the classes over the next couple of years to 
develop that improved class maintenance plan as well as to 
identify the differentials for the specific ships from the 
notional.
    So back to the model again. If we improve the input, which 
we will do, that class maintenance plan will change the 
database that is designed as one of the inputs, down to the 
level of what does it take to repair this specific pump and how 
frequently should it be repaired; what parts, how many people, 
what level of capability is required. When that gets adjusted, 
that will adjust what comes out of the maintenance model, sir.
    Mr. Forbes. Good.
    Let me just ask one more question and any of you can 
respond to this. Again, we appreciate so much your expertise. 
We understand a lot of these issues are incredibly complex. And 
it is always great to look at them on Monday morning and look 
with hindsight. But some of it is not so complex and some of it 
comes down to some commonsense things.
    One of the things that we have seen, recently the Navy 
submitted a 30-year shipbuilding plan that contained a profile 
that shows a funding increase of $2 billion per year in 
constant dollars in the middle of the plan. Now these are the 
years, incidentally, that coincide with the procurement of the 
Ohio class submarine, the platform the Navy has decided to fund 
from within the SCN [ship-procurement] account rather than 
request increased funding, with the Secretary of Defense 
requesting the Navy to find $28 billion in efficiencies over 
the next 5 years; with your own $523 million shortfall in 
fiscal year 2011 alone; with $3 billion in shipyard 
infrastructure shortfall; with what at least a couple of us 
believe is a very ill-conceived billion-dollar carrier move to 
Mayport; is there some way you can explain how the Navy will be 
able to increase the shipbuilding budget in those years?
    Admiral Harvey. I think when you look at the totality of 
the budget within the Department of Defense and how we have to 
fund ship construction throughout a FYDP [Future Years Defense 
Plan] and submit a 30-year shipbuilding plan to you that makes 
an extraordinary number of assumptions--we know that those 
assumptions, the longer you go out in that shipbuilding plan, 
the less likely some of those assumptions are to hold for 10, 
20 years--I find it not unreasonable to expect, here is a 30-
year plan. Here is what we think we need to have over the next 
quarter or more of a century in order to sustain the fleet into 
the third part of this century.
    So I don't find it unreasonable to put in there, Hey, this 
is what it is. This is what it would take to sustain this 
fleet. On the SSBN-X, in particular, we know the goal has to 
the got to be to deliver the minimum essential military 
requirement that that submarine needs at the most affordable 
cost. And I would say that the search for that answer is not 
over yet.
    So there is considerable more work to be done in terms of 
that particular issue that may make that burden in the outyears 
far less onerous on the overall SCN account.
    Those are my thoughts from Norfolk. I am pretty far away 
from the day-to-day thrust and parry of how you put together 
the shipbuilding plan and the 30-year shipbuilding plan. But I 
don't find what has been submitted, sir, unreasonable. Those 
assumptions are certainly true, that we are going to have to 
increase the SCN account. And what our Navy will look like in 5 
and 10 years, in terms of the action the Secretary of Defense 
has directed us to go and take, may make indeed those 
assumptions very true for us.
    So I hear you, sir. I don't see the hopelessness of it. I 
see something where we have a lot of work to do and a lot of 
time to do it.
    Mr. Forbes. Admiral, I am not suggesting the hopelessness 
nature of it. What I am simply saying is that one of the 
statutory requirements of that shipbuilding plan is that the 
Secretary of Defense give a certification that the budget is 
sufficient to accomplish that shipbuilding plan. And it is just 
when you look at these numbers, it makes us scratch our head 
and say, how do you get from here to there with the numbers 
that we have been given. Laying out the needs is one thing, 
which I don't disagree with that; but I think if you look at 
some of these dollar figures, it is hard for us from a 
commonsense point of view to see how you get there. I think 
that is a question we need to be asking now instead of just 10 
years down the road.
    With that, Mr. Chairman, I yield back.
    Mr. Ortiz. The chair recognizes Chairman Taylor.
    Mr. Taylor. Mr. Chairman, thank you again for having this 
very important hearing.
    Gentlemen, I am going to quote to you a paragraph in the 
Fleet Review Panel's report. It points out four things in 
particular that I find very alarming. What I am going to ask of 
you at the end of this is, I want to know who is responsible 
for fixing these four things; whether or not those four things 
have been fixed; and, if not, when they are going to be fixed.
    The review of cruiser and destroyer reviews of the SPY 
radar health area of concern and a prior review of the SPY 
radar led the panel to state:
    One, the technicians can't get the money to buy spare 
parts.
    Two, they haven't been trained to the requirement.
    Three, they can't go to their supervisor because, in the 
case of the DDGs, they likely are the supervisor.
    Four, they can't repair the radar, through no fault of 
their own. But over time, the non-responsiveness of the Navy 
system, the acceptance of SPY degradation by the Navy system, 
and the senior officers and chiefs alike, will breed--if not 
already--a culture that tolerates poor system performance.
    The fact that the requests for technical assistance are 
Navy-wide suggests there is a diminished self-sufficiency in 
the surface fleet. The sailors perhaps are losing their sense 
of ownership of the equipment and are more apt to want others 
to fix it.
    Admiral Harvey, you correctly pointed out that we are not 
counting on the LCS to be the backbone of the fleet. We are 
counting on cruisers and destroyers--and particularly the 
destroyers--to be the backbone of the fleet.
    I was an early convert to Admiral Roughead's decision to 
abandon the DD-1000 and go back to building 51s. I continue 
with that decision today. I am also an early supporter of his 
decision to put our Nation's missile defense on our Aegis 
destroyers, which makes this particular report all the more 
damning, since that is now the mainstay of our fleet.
    If the radar of the mainstay of our fleet are not working 
because of lack of spare parts, because people aren't trained, 
because it has now become accepted for them not to work, four 
questions: Who is responsible? Who is going to fix it? And when 
does it get fixed?
    Admiral Harvey. Sir, the answer to that one is pretty easy. 
I am responsible. It is my job to ensure the readiness of the 
surface fleet. If I can't do it, I get moved out and they bring 
in somebody who can. I consider that my responsibility in terms 
of the training, in terms of providing the maintenance funding 
so that we buy the parts we need to do the fixes we need to 
sustain the Aegis system and all its supporting subsystems fit 
to fight. That is my responsibility.
    In terms of the overall picture of the fleet, I believe I 
am on track to reverse these trends in the next 2 years if we 
stay on track with the investments we know we need to make in 
terms of our training, in terms of sustaining our maintenance 
availabilities, in terms of making sure our repair parts 
lockers are filled up appropriately. And we will drive to that 
via the BMD [Ballistic Missile Defense] mission that we have 
been given. That is a big driving factor for us, again, for 
which I am responsible for the readiness of the Navy to execute 
that mission.
    So that is what I consider the answer to be, sir.
    Mr. Taylor. So your timeline is 2 years?
    Admiral Harvey. My timeline is to turn the trends in 2 
years. I testified that we had negative trends. I believe that 
if we sustain the funding in 2010, if we get funding we need in 
2011, and we redistribute our manpower as I have recommended, 
if we can do these things, we can turn those trends around in 
that amount of time, sir.
    Mr. Taylor. Admiral, one of the observations from a retired 
officer whose opinion I respect is that in the effort to rush 
sailors to the fleet, that the training times have been reduced 
substantially, not only for the enlisted people but for the 
officers, and that too much emphasis has been put on training 
through computer modeling; too little emphasis has been put on 
actually having the sailor tear a compressor apart, tear an 
engine apart, rebuild a panel on an electrical system.
    I agree with that observation. I am curious what, if 
anything, is being done to turn that around.
    Admiral Harvey. Well, I agree with that observation, too. 
So I am glad you respect that retired officer's opinion, 
because I think he got it right.
    Let me give you two examples of what we are doing right 
now, sir:
    Number one is in junior officer training. A few years ago, 
we took a look at the training that was being provided at the 
Surface Warfare Officer School for the basic course in Newport, 
Rhode Island. It was a 6-month course. There was a widespread 
opinion that that was a course in which we crammed 6 weeks of 
work into 6 months. We didn't like the course. We didn't like 
the output of the course. It was inefficient. And we felt also 
that the ensigns and JGs [junior grade officers] attending that 
course didn't think much of it either.
    So we were pretty fired up about computer-based training. 
And there was an idea that, hey, maybe we can save money. Take 
that course, digitize it, give it to the officers to do on 
their own, and be guided in that by their commanding officers. 
That experiment was a flat-out failure. Admiral Curtis 
recognized that early on in his tour, and we have brought back 
the Surface Warfare Officer introduction course in San Diego, 
Mayport, and Norfolk.
    So we have got back to getting these junior officers some 
incredibly important training before they get to the ship, so 
they are not lost and confused and swimming in a big ocean by 
themselves when they get there, and not throw the entire burden 
on a CO [commanding officer] who has already got a few other 
things to worry about. So that is being done right now, sir, 
and I suspect we will expand that course over time to do right 
by our junior officers and get them off to a strong first 
start.
    The second piece, incredibly important, fire controlman 
training. Again, we saw in what was called the ``revolution in 
training'' the benefits that could accrue to us in terms of how 
we transmit this knowledge and how it is retained through the 
most modern computer-based training available. We found also 
that we met a standard, but that standard of training was too 
low. So lots was blamed on computer-based training when in fact 
there are indeed great advantages to it.
    But you have got to set the standard right and you have got 
to augment it, you have got to balance it with a version of on-
the-job training, which you probably grew up with in the Navy 
for the last 235 years. And so we have done that.
    I was just in Dahlgren last week looking at the changes we 
have made at our A school and our C school curriculums, the 
fundamental package by which we send a trained fire controlman 
to the fleet. We have made changes so that in our C school it 
is much more of an instructor-led environment. The classes I 
observed were one instructor, three students, who were through 
the basic course and now getting that intense training in big 
maintenance--the big maintenance issues. Not the easy stuff. 
The hard stuff. And so they get ready to get to their ship and 
be an impact player on arrival.
    So we are making those changes, sir, in real time. We have 
got more to do, particularly in the enginemen rate, again, for 
these ships that have these complex diesel main propulsion 
engines. We are working on that at the engineman A and the 
follow-on schools. So I think we are going down the right track 
now. And I continue to push very, very hard to keep going down 
that track, sir.
    Mr. Taylor. Admiral, lastly, I would think Mr. Bartlett and 
I would have a slightly different view of the LCS program than 
the rosy one you gave the subcommittee. I hope it is getting 
turned around. I hope that they will come in at a decent price. 
But thus far it is late, it is costly, and it is subject to 
protest, as opposed to Littoral Combat Ship. About the only 
other thing that could go wrong is if it didn't stay in the 
fleet as long as it should have.
    What is the projected life of those vessels, and whose job 
is it to see to it that we get those years out of those ships?
    Admiral Harvey. I think the view I presented, I would not 
characterize it as a rosy one, sir. I thought it was a 
realistic one from a fleet-user perspective. You were 
referring, I think maybe, to some issues on the acquisition 
side of the house. I was referring to what we are doing right 
now with the ships we have got that are out there sailing with 
the fleet as I speak.
    I believe the service life for going forward for those 
ships is 25 years. Again, it is on me to ensure that, working 
with Admiral McCoy and his organizations, that we have a 
realistic maintenance plan in effect that we actually execute, 
that will do that maintenance, the deep maintenance over the 
long haul that will get those ships to their service life.
    So I think it is up to me and Admiral McCoy to get that 
piece of it right, sir, and to get them to that service life.
    Mr. Taylor. Admiral, let me commend you for your 
willingness to step forward and say, ``That's my job.'' That I 
like to hear. I hope you will instill it in the junior officers 
below you so that 5, 10, 15 years from now that now-lieutenant 
who is going to be a commander or captain is taking the same 
ownership responsibility for those vessels.
    Admiral McCoy. Mr. Chairman, can I comment on part of your 
question and augment Admiral Harvey's statement?
    I will tell you that I am responsible for the engineering 
and maintenance piece of our ships, both on the BMD side, which 
you talked about, as well as the LCS. And I will tell you that 
over the last 2 years, if you looked at NAVSEA, the area that 
we have refocused the most is on this piece--surface 
maintenance and getting it right; getting the fundamental 
engineering right; the underpinnings, the technical rigor 
behind the maintenance plans. In fact, every 60 days I meet 
with Admiral Harvey on the plan ahead and what we are doing to 
arrest the issues that we are talking about here. And I just 
spent an hour with the CNO [Chief of Naval Operations].
    This year, we decommissioned USS Philadelphia and USS Los 
Angeles at 33 years, their designed ship life. We never doubted 
that we would get those ships to that point. In fact, those 
crews will tell you those ships went out more capable than the 
day they entered the Navy. And that is because we have an 
established process that gets to the technical rigor--when you 
do tanks, when you do pumps, when you do valves, when you do 
deep maintenance--and we don't depart from that. And we have 
the maintenance infrastructure both at the major shipyards as 
well as the intermediate level to in fact do that maintenance. 
And for the past 2 years we have been working on just that, and 
putting that in place for the surface wars. Because budgets are 
no good and budget problems tend to impact those who have the 
least data the most.
    And so, in fact, because we have not had the technical 
underpinning of what should be a selected restricted 
availability on a DDG-51, what work should be done to get the 
ship to its full design life? When budget times got hard, 
because we didn't have the underpinning, we cut it. And there 
was no impact to that because we didn't have the fidelity. We 
are putting that in place.
    We stood up the SSLCMA, the Surface Ship Life Cycle 
Management Activity, in 2009, to do exactly what the submarine 
force and the carrier community do. We have those plans. In 
fact, we increased surface maintenance $150 million this year 
because of the quick-look efforts that we did a year ago for 
the DDG-51 class that said we were way off the mark on the 
surface maintenance that we need.
    In addition, we are working right now, and expect next year 
to get for the first time, program-related engineering and 
logistics budget line to the tune of about $47 million to do 
the ISEA [In-Service Engineering Agent] support, to do the 
things that you are talking about. So why didn't the ISEAs 
provide more support for the Aegis BMD, more training on the 
deck plate for our sailors? We will now be able to do that. In 
fact, I am working with a three-star panel that includes both 
fleet deputy commanders and director of the Navy staff to get 
the maintenance and sustainment and assessment piece right well 
into the future.
    And so that is where we are headed. We are not reinventing 
anything. We are doing exactly what we have done on our 
submarine force and aircraft carriers that has proven 
successful.
    Thank you, sir.
    Mr. Ortiz. The chair recognizes Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Harvey, I want to go back, and I appreciate your 
comments about A<INF>o</INF> and operational availability. I 
think that increased operational availability is critical. It 
still seems like to me, though, there are situations where 
demand still exceeds availability.
    Let me point to a comment by Ranking Member Akin, where he 
had said that the deployment of the 13th MEU [Marine 
Expeditionary Unit] may be delayed due to the material 
readiness condition of the USS Green Bay LPD-20. I just want to 
get you to confirm whether that is or is not the case.
    Second, within that context, have other deployments of 
surface combatants or amphib vessels been delayed over the past 
6 to 12 months due to the readiness of the fleet? And are you 
planning for more delayed deployments next year, based on 
operational availability? And what are the operational and 
personal impacts of those delays, if any?
    I realize operational tempos have a lot to do with that 
too, and demand, but I want to get your perspective on that, 
and where we are, and that is a real-world situation that 
appears to be developing. I just want to get your comments on 
that.
    Admiral Harvey. No, sir. Admiral McCoy will talk to the 
Green Bay specifically because he has the best knowledge on 
that. But in terms of making the deployment schedule for the 
MEUs, we are going to make the deployment schedule we have to 
make for our Marine Expeditionary Units and our Amphibious 
Ready Groups [ARG], and we will do what it takes to get there. 
Those are critically important in every theater, as we saw when 
we started the Haiti operation. And we diverted the Nassau ARG 
with the embark MEU down south to see if we were going to need 
them for the assistance; pushed them on into CENTCOM [United 
States Central Command].
    But we certainly have had issues as we saw with the LPDs. I 
was very concerned whether we would deliver the LPDs on time 
and fix the ones that we have to get fixed. I am very confident 
now that we are going to be able to make all the deployments I 
see in the near future, on the right schedule for our ARG/MEUs, 
and make them with the full ARG set of ships. So I don't see 
future delays.
    Now, certainly to be complete, we have reracked within 
those ARG/MEUs some of the ships that went. The Ponce is going 
over. We pulled her out for one more deployment because of the 
problems with San Antonio. But we made the deployment, we made 
the requirement, and we will continue to do that. Pretty much 
whatever it takes.
    Now, does that have an impact on sailors if you move them 
from one schedule to the next? Absolutely. Today in Norfolk, 
the USS Dwight D. Eisenhower is arriving after a 7-month 
deployment. She had a 6-month break from her last one, okay? 
That is a huge impact on those sailors and their families, to 
the point of your question. We recognize that. But we also 
recognize the demands of the war we are in and we have to meet 
those demands. Our sailors recognize that and they are staying 
with us. So we are okay in terms of meeting our deployment 
schedules.
    We are okay in terms of now I think we have got to 
understand what is going on with San Antonio. We will have that 
ship when I need it, and the rest of her class when we need 
them.
    And I will get Admiral McCoy on the Green Bay in 
particular, sir.
    Admiral McCoy. Yes, sir.
    Congressman, earlier this spring, Green Bay entered a post-
shakedown availability following new construction trials. 
During that time frame, we elected to install system 
modifications that we determined coming out of the San Antonio 
investigation, and other issues with main propulsion diesel 
engines on LPD-17 class. We changed the filtering systems. We 
also did some piping changes between the final strainer and the 
engine to eliminate socket welds and install butt welds so that 
we didn't have, possibly, contaminants and hideout places for 
contaminants in the system. We also did a number of piping 
inspections and piping repairs due to inadequate fillet welds 
during the new construction process. Towards the end of that 
PSA, post-shakedown availability, we determined significant 
foreign material in the steering system that had fouled the 
rams and caused galling of the steering ram. And we had to go 
cut the deck and replace the ram, which made that PSA go long, 
which pushed the downstream schedule.
    That has been repaired. The ship has been back out and 
completed final contract trials last week. And we expect the 
ship to take its place in the regular fleet rotation from 
thereon, sir.
    Mr. Wittman. Very good. Thank you, Admiral McCoy.
    Admiral Harvey, I want to go back to a more general scope 
question and ask you what measures are you putting in place to 
ensure that the Navy is going to stay committed to improving 
the readiness of the surface force over the long haul?
    As you know, the Navy has already been directed to find 
$28.3 billion in efficiencies over the next 5 years. And that I 
think creates some significant challenges. We have seen too 
many examples, unfortunately, within those cost-cutting realms 
trying to front-load those savings but then being concerned 
about what are the long-term implications of that. And as 
Ranking Member Forbes had pointed out, if you look at the 30-
year shipbuilding plan, there are some concerns about how the 
loading of the cost structure is there with the construction of 
ships and those costs.
    Let me ask this. Under those challenges, how can you assure 
this committee that the Navy is truly committed to making the 
investments that it needs into the future within context of all 
those cost requirements and training, manning, maintenance, 
testing and quality assurance, to ensure that we are able to 
sustain operations? And I think that is the key, not knowing 
quite what the challenge is going to be in the future. The 
concern is, How are we going to balance all of those things in 
the face of those requirements to save, but also in the face of 
what we all know, too, are many, many needs and demands going 
forward.
    Admiral Harvey. It is a two-part question, sir. I will take 
one at a time.
    The first part. We have to simply make the commitment to 
treat our surface ships in their training phases, in their 
maintenance phases, and in their deployment phases like we 
treat our submarines and like we treat our aircraft carriers. 
We have a firm maintenance plan for aircraft carriers and 
submarines that we do not deviate from. We simply won't. And 
until we have that attitude thoroughly inculcated in the fleet, 
in the force, in the maintenance activities, and in the budget 
tiers, we will have problems in the surface fleet.
    We have to treat those ships right for the long haul. That 
means during that reset phase, when we commit to training, we 
have got to do the training. When we commit to a captain that 
he has got a 20-week maintenance period, then by God we give 
him a 20-week maintenance period that is well thought-out and 
well-configured and paid for, and delivers real maintenance 
that keeps that ship going not just for the next deployment but 
for the deployments to come.
    So it is a level of commitment across the organization that 
we will go back and treat these ships right for the long haul, 
just like we do the rest of the fleet. That is number one.
    Number two, sir, you keyed on it in your opening statement 
and you have come back to it here. There is an unconstrained 
demand on the part of every combatant commander for what these 
ships bring. I understand that. I know what these ships and 
their crews bring. It is incredibly valuable not just to the 
wars going on now, but to all of our strategic engagements 
around the globe.
    Look what is happening up there off Korea right now, today. 
Incredibly important deployment of our fleet and sustaining 
that deployment over the long haul. But we are going to have to 
meter that demand, just like we meter it today for our nuclear 
attack submarines, just like we meter it today for our aircraft 
carriers, just like we meter it today for amphibious ships.
    Through the global force management process that is run by 
Joint Forces Command in conjunction with the Joint Staff, we 
receive all of the demands and we come back and say, here is 
what we can meet while we sustain this fleet for the long haul.
    So it is an idea that you not only meet the critical needs 
today, but you do it in a way that sustains yourself over the 
long haul. So I have got to work that. We are working that hard 
in the Navy. I need to work that with the Joint Force who uses 
the incredible capabilities we bring. That is the answer, sir. 
We have to get there.
    Mr. Wittman. Thank you. I appreciate your candor there.
    I want to extend a little bit further, too, on the ability 
to sustain in the long haul. Obviously we have capital needs, 
but also on the operational side we have those human needs. And 
one of the concerns there is making sure that you can meet all 
of those demands in a pretty challenging environment.
    One of the aspects of that obviously is training. And you 
spoke a little bit to that; about how we make sure that we get 
timely training that assures that people at every level have 
the skills and capabilities that they need. And I wanted to ask 
how you are integrating the innovative use of technology, like 
serious gaming, into the training regime to try to make sure we 
are getting the most out of the time that our men and women in 
the Navy have to obtain that training. And just like you said, 
we want to make sure that things are effective the deployment 
side increases, as you know, return time and making sure they 
have training becomes even more important.
    So I just want to get your thoughts about how you are using 
those innovative technologies in meeting those training needs 
into the future.
    Admiral Harvey. Well, I will tell you one--I have been in 
command for almost exactly a year and it has been a real 
learning process for me in so many different areas. And you 
keyed on one of them. I came in and found a significant 
investment that was planned, an increase and significant use of 
what we call ``fleet synthetic training,'' is how you train a 
strike group commander to be ready to go to the Arabian Gulf 
and deal with whatever they may find over there, but without 
having to get the entire strike group underway, spend all the 
money on fuel, take them out of home, fly the air wing, fly 
those hours off those aircraft just to train the staff of the 
striking commander.
    I was a skeptic. I was old school. I said, ``by God, you 
get underway, that is where you learn, that is how you learn.'' 
Okay? That is why we did it for the last 30-some years. But I 
have really become a believer in the fleet synthetic training 
and what I have seen develop over the last 5 years. It is very 
sophisticated, it is very complete, and it really puts the onus 
on the people, the targeted audiences, for the training at the 
staff level, at the fleet commander level. I think we really 
put them through a wringer with that and we get a very good 
result for it.
    I think that is what you are talking about, sir. And I see 
that as something I am going to continue to push very hard on 
because you get a really big bang for not so many bucks.
    Mr. Wittman. Thank you, Admiral. Thank you, members of the 
panel. We really appreciate your time today.
    And, Mr. Chairman, with that I yield back.
    Mr. Ortiz. The chair recognizes Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank you to the 
panel. This has been a terrific hearing. And thank you for your 
great work.
    I have worked with Admiral McCoy over the last year or so 
on a couple of issues, and I am just so impressed with the 
quality and seriousness which you brought to your job.
    Admiral Harvey, you have been pressed a few times today 
about whether or not there is really a light at the end of the 
tunnel in terms of the challenges the Navy faces in terms of 
the 30-year plan and the need to find efficiencies. I just 
wanted to at least support your positive outlook.
    This Saturday, we are commissioning the Missouri, which was 
built in 65 months. The first submarine in its class took 87 
months to build. The next block, again partly because of 
Admiral McCoy's great team, is going to be probably 55 months 
in the making. So the fact is there are ways to find 
efficiencies, to find savings, without sacrificing capability. 
Those newer boats are going to be, in fact, more capable than 
the first ones that came through the system.
    So I share your belief that when you set targets and you 
really hold people's feet to the fire, that you actually can 
see real results.
    And obviously you mentioned the submarine fleet a couple of 
times in terms of it being an example for the surface fleet.
    I guess the one question I wanted to ask today is you 
mentioned, Admiral, the exercises going on in Korea right now. 
It all is happening because of a surface ship that was sunk. 
Obviously, it was a South Korean vessel, but there clearly was 
a pretty scary shortcoming that that ship had, which is that it 
couldn't detect through its sonar technology the minisub that 
basically, in my opinion, committed homicide in that incident.
    Obviously, you are dealing with maintenance issues and 
keeping ships sort of maintained. But, obviously, there are 
challenges out there that you also have to kind of respond to 
or see out there. And, obviously, this minisub threat, and 
particularly in shallow settings, creates a real challenge in 
terms of sonar.
    Again, we talked about radar issues which has been 
analyzed. But where are we in terms of the surface ships' 
capability--our surface ships' capability in terms of being 
able to deal with a threat like that?
    Admiral Harvey. Sir, I think of no warfare area that 
presents our Navy a greater challenge than anti-submarine 
warfare [ASW]. I mean, the physics are against us. And as long 
as you can build a diesel electric submarine, they are going to 
be in certain environments, in certain bodies of water and 
under certain conditions, they are going to be very, very tough 
to detect on the best of days. But the good news is we have got 
the best equipment in the world, our sonar seats, our Navy 
towed array system, and the sailors that we have to put that 
all together and work that piece real hard, bringing the PA 
[patrol aircraft] Poseidon into the fight now, as we are, as a 
replacement for the P-3.
    One of the reasons Chairman Taylor mentioned about the 
truncation of the DDG-1000 was to keep the focus and the great 
capabilities that our DDG-51 class Flight II and hopefully the 
Flight III have in the blue water, the deep ASW fight. 
Tremendous challenge.
    But we have the best equipment in the world. We have to 
make sure that our training matches the capabilities of the 
equipment. And I think if there is any area where I have seen 
the deficiencies, it has been in our focused training on ASW. I 
think our helicopter squadrons have been solid over the years. 
Our P-3 deployments were entirely focused for the last 8 years 
on supporting the fight on the ground in Iraq and Afghanistan 
with some of their unique surveillance systems they had.
    We brought them back to blue water. We are focusing and we 
have set the standard: You are the ASW platform, and ASW is a 
mission that only, only the United States Navy does in our 
Joint Force.
    So the key, sir, to getting at this very tough challenge is 
the training of our sailors across the board--aviation, 
submarine, and in the surface fleet--that makes our equipment 
truly capable of what we know it is capable of. It is that 
package you have to bring together and then work it together 
with the helicopter, with the towed array, with the submarine, 
working it all together in real time.
    So it is individual training, it is collective training, 
and it is staying on that equipment and keeping it up to design 
specs. If we do all that, we will be good to go in either the 
Western Pacific, in the Persian Gulf, or anywhere else we may 
have to operate and sustain ourselves for an extended period of 
time.
    Mr. Courtney. There has been, obviously, a lot of back and 
forth today about the training challenges that are out there 
and whether or not the computer-based training really is 
adequate.
    Again, is the sonar area one of these places that you are 
focused as far as upgrading?
    Admiral Harvey. Absolutely sir. It is a critical warfare 
area--a warfare area of growth that we really have to get 
after, ASW and ballistic missile defense. In both those areas, 
the training that is going to be required from an individual 
basis, from a team basis, that you would see in the CICU 
[rugged chassis] of a destroyer or on a theater basis, because 
these are big-picture issues. So it is a theater issue as well.
    All of that is a blended solution of training. You can't 
get it all from a CD. You can't just do it all passed down from 
the older petty officers to the younger petty officers. You 
have to stay up. So it is a blended solution that matches the 
capabilities of the sailors we are trying to train.
    So that is what we have to stay after, in a ruthlessly 
disciplined process to get at, in order to be equal to the 
challenges we are going to face.
    Mr. Ortiz. The chair recognizes Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And Admiral Harvey, Burke, and McCoy, thank you so much for 
your service to this country. All three of you have had 
distinguished careers.
    Let me just say that, Admiral Harvey, you have mentioned a 
couple of things. Number one, I think your commitment to, or 
the Navy's commitment to expeditionary forces and the 
commitment to extending the fleet through its service life.
    First of all, to the expeditionary forces. I think the 
United States Marine Corps has a requirement to deploy two 
Marine expeditionary brigades at any one period of time. That 
is 17 ships per Marine expeditionary brigade. So that is 34 
ships in total. And then you probably need an additional four 
for maintenance purposes in terms of rotation.
    Right now the United States Navy is down to 31 amphibs and 
now the United States Navy would like to retire 2 prior to 
their service life. I believe the USS Peleliu and the USS 
Saipan. And that raises a concern to me that not only does the 
United States Marine Corps not have the requisite number of 
ships to fulfill its mission, but that the United States Navy 
would like to save operating dollars in cutting back two ships 
prior to the end of their service life.
    You mentioned the USS San Antonio and the maintenance 
problems there. But you did not mention in your presentation 
those two ships which the Navy wants to retire prematurely. I 
wonder if you can address those issues.
    Admiral Harvey. Absolutely. I was just recommending to the 
Chief of Naval Operations yesterday that, based on all that I 
have learned in the last year, and particularly in the last 4 
months, and what I believe will be the way ahead for our LPD-17 
class, that I am a strong supporter of going ahead and 
decommissioning in fiscal year 2013 Peleliu and Denver, and 
still being able to meet the deployment requirements for the 
ARG/MEUs that we just talked about in a recent discussion.
    So I do support decommissioning those ships. Tough call. 
Clearly, a very tough call. But if we don't, and if you look at 
the maintenance costs of those ships, they are not steady each 
year. As you approach the age of those ships, those maintenance 
costs, just to keep them going from day to day, are on a 
geometric road, not an arithmetic road. So it is taking more 
and more of a finite budget to keep fewer ships going. And that 
is a very difficult choice to make.
    I talked a lot earlier today about the redistribution of 
those 324,000 sailors. We have urgent needs in our Special 
Operations Forces, what we have learned in the last 10 years 
about the needs for that incredibly skilled and incredibly 
important force. Our cyber forces, we are in the news every day 
about more and more cyber threats to this country and to the 
Armed Forces. So we are counting on redistributing those 
sailors off those ships into these very vital warfare areas.
    So in terms of using the sailors best for the long haul, 
making sure I get the most out of the maintenance dollars, 
while still meeting the essential combatant command 
requirements, I made the recommendation to CNO to move forward 
with those early decoms [decomissionings]. I support it. And I 
believe I can look General Rich Natonski and Denny Hejlik in 
the eye down there in Norfolk where the rubber meets the road 
and say, I am going to get the Marines where they need to go, 
when they need to get there, and still decommission those 
ships.
    Mr. Coffman. Admiral, when is the service life of the 
Denver and the Peleliu, when do they come to the end? What is 
the schedule for those? I believe it is a 40-year life.
    Admiral McCoy. Congressman, they are both around 35 years. 
They are both within about a 5-year window of their service 
life.
    Mr. Coffman. Let me just say this; that I think that 
sometimes organizations over time forget their core mission. 
And the core mission of the United States Navy is projecting 
seapower. That is the core mission.
    And if it is a matter of saving operating dollars, let me 
just remind you that, in my view, that the United States Navy 
is top-heavy and could use some reform in terms of reducing its 
bureaucracy at the top.
    But let me leave you with another issue, and that is 
something to look at. I would commend to you that you certainly 
have talked about doing all you can to extend the service life 
of these ships to at least realize their usefulness until they 
are scheduled to be decommissioned by virtue of their service 
life; that you adhere to those schedules and that you find the 
savings in looking at the top-heavy nature of the United States 
Navy's bureaucracy at the top.
    Also, on a separate note, to look at--I believe that all of 
the services are based on an archaic model of a 20-year career 
path and the promotion schedules reflect that. And I think that 
those promotion schedules are too fast and I don't think that 
sailors, as well as members of other services, gain the kind of 
technical proficiency they ought to gain with that kind of 
career path that I think is too expedited.
    If you would like to respond to any of the issues that I 
have raised, please do so in my remaining time. I believe my 
time has expired, Mr. Chairman.
    Mr. Ortiz. You can go ahead and respond to his questions.
    Admiral Harvey. Yes, sir. You covered a lot of territory, 
but I want to go back to you on one point that I think is just 
incredibly important, and that is kind of what our focus is 
here and my responsibilities.
    I am sitting here staring at a quote from the U.S. 
Constitution, Article 1, Section 8, which is a very visible 
reminder of the Congress' responsibility for the provision and 
maintenance of the Navy. And I am very, very aware of that.
    I am equally aware of the law, its requirements of the 
Navy. It is Title 10, Section 5062. ``The Navy shall be 
organized, trained and equipped primarily for prompt and 
sustained combat incident to operations at sea.''
    Sir, I have never forgotten that. That is the law that 
drives every action at Fleet Forces Command. We have to make 
tough choices, as do you. And you make them every day and we 
make them, too. But I am never--I just want to assure you, I 
understand what the law demands of the United States Navy. I 
understand deeply the mission of the Navy and the Navy-Marine 
Corps team, and what we do for the Nation that no other Armed 
Forces on this planet can do. And I am deeply committed to 
sustaining that capability through whatever lays ahead: good 
times, hard times, whatever. That has never, never gone from my 
mind and governs every action I take every day at Fleet Forces.
    Admiral McCoy. Congressman, could I come back on the design 
life? Peleliu, when the ship was designed, was a 20-year ship. 
So she is already at the 35-year point. And we expect Denver to 
be at 44 years, based on a 40-year life, when she goes out.
    Mr. Coffman. Mr. Chairman, may I ask one question about the 
USS Saipan that was not addressed?
    Mr. Ortiz. Sure.
    Mr. Coffman. You all did mention the USS Saipan, and I 
understand that that was a part of the proposal to prematurely 
retire the Peleliu and the Saipan. I don't think that that was 
mentioned to this committee. And the Denver, quite frankly, was 
not mentioned. The USS Denver was not mentioned to this 
committee in prior hearings.
    Admiral McCoy. Sir, you may be thinking about the Nassau, 
which is LHA-4, and the Peleliu, which is LHA-5.
    Mr. Coffman. I stand corrected. The USS Nassau. What is the 
status of the USS Nassau, then?
    Admiral McCoy. We expect her to go out next year, sir, in 
fiscal year 2011.
    Mr. Coffman. That is before its scheduled service life?
    Admiral McCoy. No, sir. It was designed for 20 years when 
it was built. Just like Peleliu.
    Admiral Harvey. It is way in excess of its service life, 
sir.
    Mr. Coffman. Mr. Chairman, I think if we could get--I would 
like a report back on that, because I think we have differences 
in what the scheduled service life is. And I would be stunned 
that these--I am rather surprised that these ships are only 20 
years.
    Admiral Harvey. Yes, sir. We will certainly get that to 
you.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Ortiz. Thank you so much. The chair recognizes Mr. 
Kissell.
    Mr. Kissell. I want to thank the panelists for being here 
today, but I also want to thank the chairman for having this 
joint hearing. I am on the Readiness committee, but my other 
subcommittee is Air and Land. So to get this insight to the 
issues of the Navy is very interesting to me, and I don't have 
the intimate knowledge that I would like to have there. So my 
questions might be more of a general nature and actually 
reflecting maybe some concerns that have already been 
expressed.
    Admiral Harvey, you talked about trying to reverse downward 
trends in terms of training and command structure and things 
along this line. And that obviously would be an issue across 
any of our branches of service if we had downward trends.
    I think one of the keys there--and this was mentioned by my 
colleague, Mr. Wittman--is not only what are we doing about 
that, but at some point in time that downward trend started. 
How confident can you be in telling us that we are willing and 
have systems in place that maybe perhaps could spot other 
downward trends before they reach the point that evidently this 
one has, to cause so much concern?
    Admiral Harvey. Yes, sir. I think in one of my earlier 
responses I talked about the institutional rigor with which our 
aviation and submarine communities view every aspect of their 
operations, and that my assessment was that similar type of 
institutional rigor has not been present in how we monitor the 
health of the surface fleet. My answer is we have got to ensure 
we take that rigorous type of approach in the surface fleet in 
every aspect of this: training, maintenance, operations, and 
repair parts. Until we do, we won't turn those trends around.
    That is why my focus has been on working with the admirals 
to my right and to my left on getting that type of rigor into 
how we view our business with the surface fleet; making sure it 
is not just a passing fad from day to day, but that it becomes 
deeply entrenched in how we do business from day to day. I 
think that is the key. If we don't get there, we won't reverse 
those trends.
    But I think we have got the focus, we have got the energy, 
I have got the resources, and we certainly have the intent to 
get that kind of rigor in how we do business with our surface 
fleet and sustain it into the future.
    Mr. Kissell. As Mr. Taylor said, we appreciate so much you 
being willing to take on that responsibility because that is--
as Mr. Forbes said, we have a relationship, but that is also 
what we are dependent upon from you and we appreciate that.
    And once again, kind of going into what Mr. Courtney talked 
about, the mini-submarine. We have talked about in some 
hearings I have been in before about we know what IEDs 
[Improvised Explosive Devices] have done in Iraq and 
Afghanistan and how they take the multibillion dollars that we 
have available and high-tech gear and they bring it down to a 
common danger that is very cheap.
    The threats that are presented to our Navy along this line 
where we have the highest technology on our ships, how are we 
anticipating the equivalent of IEDs being a challenge to our 
Navy in future years so that we can prepare defenses from that, 
short of actual experience?
    Admiral Harvey. Well, I think what you are talking about 
there, sir, is, (a)--and General Mattis alluded to it in his 
confirmation hearing yesterday in front of the Senate Armed 
Services Committee--our ability to adapt.
    These events move at a speed during wartime which is far in 
advance of what you experience in a normal peacetime 
environment. And organizations are developed and structured 
generally during peacetime. What we have to do is ensure that 
our ability to adapt in this large bureaucratic structure, that 
we know and love as the United States Navy, we have to ensure 
that we have that ability to adapt as fast as whatever the 
enemy throws at us, wherever that enemy may be, conventional, 
nonconventional, asymmetric threats--which is kind of what you 
are alluding to here--and how rapidly we do that. And you do 
that because you have got the best people on the planet wearing 
the uniform and working on that piece every day.
    So it starts with our people. If we bring in the right 
people, if we maintain them in our service, if we train them 
correctly and treat them correctly, they have the imagination, 
they have the capability, they are absolutely brilliant on the 
basics, and they will bring us through those kind of threats 
that you talk about. Because those are failures of imagination, 
those are failures of adaptation. And I think we are 
particularly strong if we keep the people where we need them. 
We will stay current with the threats. We will not lose in the 
battle of the future. We will be the preeminent naval force on 
the sea because of the people we have working for us today. 
That is the key to this whole thing.
    Mr. Kissell. And I would even suggest--and I think this is 
obvious--that the word--and ``adapt'' is a great word--but 
``anticipate'' to what could be brought our way so that we 
don't have to learn from experience, so to speak; that we can 
anticipate and through that anticipation avert a bad situation.
    But I appreciate once again your all's service, and these 
are important conversations. Once again, Mr. Chairman, I 
appreciate the opportunity to learn more about seapower.
    Mr. Ortiz. Thank you so much. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman, and to Chairman Ortiz 
and my chairman, Chairman Taylor, and to you gentlemen for 
appearing here today.
    My question goes to the LCS manning. I understand that the 
LCS is designed to carry a 78-person crew. And one of the 
things that is worrisome is that the GAO [Government 
Accountability Office] report says the Navy faces risks in its 
ability to identify and assign personnel given the time needed 
to achieve the extensive training required--484 days.
    I am curious if the LCS and really all new ships will 
require our crew members to do more or our ships to do more 
with less people. And I would like to hear the details on how 
you plan to maintain this healthy circle of readiness.
    And why I refer to this is that in one of our questions, or 
some of the information we were given, it was our understanding 
that ships now have to be augmented with personnel to help them 
pass INSURV, which raises questions about ship self-
sufficiency. So we have a decline in the number of personnel 
and we are getting information that ships are having to be 
augmented with personnel to meet this INSURV. I would be 
curious to hear your answer.
    Admiral Harvey. Yes, sir. I think there is a little bit in 
your questions for all of us here, and I will take a first shot 
at a couple of things. My first INSURV inspection was when I 
was Lieutenant Junior Grade Harvey back in 1977 under--Admiral 
Buckley was the lead inspector on the USS Bainbridge. It was 
pretty rigorous back then, too. And it took all we had to go 
through an INSURV, which is operating every piece of equipment 
on board that ship, in port and underway, in a very short 
period of time, to its design specifications.
    Now, in normal ship operations, even under the most 
strenuous conditions you can imagine underway, you are never 
operating every piece of equipment to that level of degree in a 
very, very short period of time. So the INSURV inspection is a 
very intense, focused look at an entire ship, stem to stern, 
every piece of it, in a very finite amount of time.
    But the effort it has taken us in the last 3 years to 
prepare a ship for INSURV, as you alluded to, was precisely one 
of those incredibly important indicators that showed me we had 
our trends in the wrong direction. So it wasn't just the INSURV 
results, what it took to get those ships that passed to the 
passing level. The intense maintenance we had to do and the 
workup to those ships, the extra training we had to do, that 
was the issue. Not so much we had just a failure rate, but it 
took a lot more effort to get them ready to go.
    So that was part of the thing that we have learned from and 
it is clearly one of the things we have to correct. And you 
correct that through the steady application of resources and 
training throughout the cycle of the ship; not just in 2 weeks 
before the great exam comes, and you try and do an all-nighter 
essentially, and cram it up, and then get through it. That is 
entirely wrong.
    And the approach we are taking is that steady strain of 
increased effort, treating these ships as they need to be 
treated. So that is the very important thing I think we have 
learned from the INSURV piece.
    To LCS, I think the issue before us, as always on these 
complex issues, is very simple. We have to have the courage, 
the institutional courage, to face the facts that we draw from 
her recent deployment. And we have to put them down. And we 
say, This is what we designed this ship to do. These are the 
CONOPS [Concept of Operations] that we put out there for this 
ship to execute--which they executed, by the way, very 
successfully in the Caribbean in the anti-narcotics missions. 
Some real successes down there that were very, very important 
for us.
    But then we have to look at the totality of them. Could 
they maintain the ship the way we need to maintain that ship? 
Could they operate that ship to the degree we needed to operate 
that ship and get those answers in black and white and then 
deal with the facts as we find them? We may have to make 
adjustments in manning. We may have to make adjustments in 
maintenance schedules. We may have to make adjustments in terms 
of how we prepare those crews to get to that ship and be ready 
to execute because it is unique in the Navy in terms of what we 
expect those sailors to do.
    I think we just simply have to be sure that we are getting 
the facts, that we have the courage to face those facts and 
follow them where they lead us. Because if we do that, we will 
deliver on this Navy a great ship.
    One last story, sir. I alluded to earlier that I was in the 
commission crew of the FFG-8. That class of ship--and I think 
Chairman Taylor may remember--was much maligned in its early 
days of operation. It was designed to do long-range ASW patrols 
in the North Atlantic. That is why that ship was built. None of 
those ships have ever executed a long-range ASW patrol in the 
North Atlantic in the course of their lifetime. But they have 
gone on to do incredibly valuable things over many years of 
good service.
    I think we are going to see that similar type of growth in 
LCS. And that is not just happy talk. I don't do happy talk 
here. I don't do it with sailors. I believe to the marrow of my 
bones that we are going to be very glad we brought LCS into the 
fleet. And I think we are going to have the courage to follow 
those facts and make sure we develop that ship and see what it 
is capable of and bring that to the fleet, those capabilities 
that we really need.
    In terms of some specifics on the training for the LCS, 
sir, I think Admiral Burke can give us a couple on that, sir, 
with your permission.
    Admiral Burke. Yes, sir. A couple of things about LCS 
manning. First of all, we are putting a lot of effort into 
getting the right people to the ship. So we are taking good 
quality sailors and putting them on that ship with a 
significant amount of training.
    The other thing that we are doing that is quite different 
from what we have done with other ships is we have what we call 
a 3-2-1 concept for the majority of the LCS fleet. And that is 
three crews for two ships, one of which is away all the time. 
So what that does for us is provides greater A<INF>o</INF>, to 
Mr. Wittman's point; but it also gives us ready replacements 
that we need to keep that ship operating because the training 
of these sailors is at such a high level and they are so 
critical to the team because there are so few of them. So each 
individual person is more valuable than he would be on a 300-
person ship, for instance. So that 3-2-1 concept allows that 
rapid replacement to happen should we have a crew member get 
sick or hurt, or whatever the case might be.
    And then the other thing that we are doing is we have taken 
a bunch of the logistics functions off the ship. We have done 
some of this in some of the other classes, but not to the level 
of LCS. So we have taken off many of the supply functions, many 
of the ordering parts, people functions, taking care of the 
crew. So we have this logistics support group that tracks the 
ship, is ahead of them for husbanding needs, for repair parts, 
getting the parts there, getting the contract crews there to 
clean and maintain the ship to keep it at the right level.
    So those are a couple of things that we are doing in the 
LCS. And that is what Admiral Harvey alludes to. We are 
treating this ship differently, and we have to treat it 
differently. We have to adapt to the ship, as opposed to have 
the ship adapt to what we have done.
    Additionally, I think Admiral McCoy probably wants to talk 
about some of the things we have done in the maintenance area 
on this ship.
    Admiral McCoy. Congressman, along those lines of the Navy 
adapting to LCS or LCS adapting to the embedded Navy structure, 
there are a number of things we have had to do. For example, we 
have had to augment the crew with contractor support to do 
fundamental preventive maintenance, where we have not done that 
before on previous ships. But when you are down to a 40-person 
crew, we need to do that. During maintenance availabilities, we 
augment the crew with contractors to do things like tag-outs, 
to set system isolation to support the maintenance.
    In port we provide contractor support for deep cleaning and 
painting and corrosion prevention, which we do not do for our 
other ships, all examples of how we have to adapt to fit the 
LCS model.
    Additionally, the whole mission module concept is a great 
burden reliever for the crew because the fundamental 
warfighting package is maintained off the ship and can be, in a 
turnaround, essentially a fresh one on the shelf provided to 
the ship.
    We send the key data on the propulsion plant and the main 
auxiliary systems off board every day electronically to ISEA 
engineers, in-service engineering agents to look at the health 
and the monitoring of the systems. Additionally, we have these 
ships in the American Bureau of Shipping inspection cycle to 
make sure that we are looking at all areas of the ship on an 
about 8- to 10-year cycle, similar to what we are standing up 
for the rest of our surface Navy.
    Right now as Admiral Harvey talked about, we are looking at 
what are the early returns, what have we learned from both 
ships? And two things we have learned. Even though we have done 
one pass on preventive maintenance, it is still too much. But 
we need to go back and do another pass, and in fact take some 
more preventive maintenance off the crew's burdens to either 
shore support and, in fact, infuse some technology.
    So, for example, we are working on laser technology for 
doing lube oil and fuel oil samples to take some of that burden 
off of the crew, other examples of how we are trying to adapt.
    The other one is corrosion. We need better choices during 
the shipbuilding process--of materials--better paints and 
things like that. We are seeing already corrosion on both 
ships. So we are factoring that back into the production line, 
as well as into the maintenance plan.
    Mr. Critz. Thank you very much. I have no further 
questions.
    Mr. Ortiz. Thank you so much.
    I just have one last question, unless some of the other 
members and the rankings and Chairman Taylor have a closing 
statement.
    But I know that you all are very responsible, and this 
morning you have done a great job. But my question is: What 
plans and metrics has the Navy developed to track and measure 
progress of the corrective actions that are being implemented? 
And how would the Navy assure that this does not end up in the 
same place we did, again, in another 5 to 10 years?
    Admiral Harvey. Yes, sir. The direction I have given to my 
subordinate commanders, both the fleet commander, the second 
fleet commander and for the type commanders in surface, air and 
submarine, we gather in a room every 2 weeks and we put the 
fleet up on the board and we talk about what has to happen to 
deliver the forces ready for tasking that we have committed to 
delivery. We look at every aspect of their maintenance, their 
training, their manning, every piece of what it takes to 
deliver a ship, a squadron, a submarine, to a combatant 
commander, ready to operate to the limit of its combat systems 
capabilities.
    We now take a hard, hard look at that. And I ask some 
pretty tough questions. You can ask tough questions, Mr. 
Chairman, and so can I. And I like to get the same kind of 
answers out of my people that you want out of me.
    It is the same process. We look at the assumptions that are 
so important. You heard Admiral McCoy talk about the 
assumptions that we made for the LCS to operate properly with 
the manning we have given her. And if you don't bring those 
assumptions home, this whole thing collapses like a house of 
cards.
    So we focus on what we owe those ships and squadrons and 
submarines to deliver and what we owe those sailors. And we 
drill down hard on that. And we are just going to keep at it.
    And then I owe the CNO a picture of the fleet. And this is 
where I come to him and say, ``This is what I have got. This is 
what we are able to do. This is what I need to sustain 
ourselves into the future.'' And I have to be honest and 
forthright in doing that. And I think I will be. That is his 
expectation of me, and I certainly intend to deliver on it.
    But that is the kind of thing, sir--there is no magic 
formula for this. This is hard work every day, chasing the 
facts, understanding the facts, and acting on the facts.
    Mr. Ortiz. Chairman Taylor, do you have any statement that 
you would like to make?
    Mr. Taylor. No.
    Mr. Ortiz. Mr. Forbes. Mr. Wittman.
    There is no question that you gentlemen are very, very well 
informed, very knowledgeable, and you have answered some tough 
questions this morning. And we just want to assure you that we 
want to work with you. And anything that happens along the way, 
let us know, because we would like to help you.
    But I think that this hearing this morning has been very, 
very informative to us and members of the subcommittee. And we 
just want to say thank you so much for what you do, for your 
service, and the family support that you get from your family.
    Chairman Taylor.
    Mr. Taylor. Thank you, Chairman. And again, I don't want to 
delay this any longer.
    Admiral Harvey, for about 4 years running, both then-
Chairman Bartlett and I had people come to our office and tell 
us the LCS program was on line and everything is going fine; 
and then somewhere around November of 2006, we get a call that 
this thing has just gone to hell in a hand basket. At no time 
do I ever remember anyone stepping forward and saying, ``That 
was my job and I didn't do it right.'' So I do want to commend 
you for stepping forward today and saying that it is your job, 
that you are going to get it done. In this town, we don't hear 
that often enough.
    So I want to commend you for what you said. I look forward 
to working with you on this. And you tell us what you need from 
us, because it is our job to provide the funds that you need to 
do yours.
    Again, I want to thank all of you for being with us today. 
And I particularly appreciate what you had to say today.
    Thank you, Mr. Chairman.
    Mr. Ortiz. Thank you so much. And there being no further 
questions, this hearing stands adjourned. Thank you.
    [Whereupon, at 11:42 a.m., the subcommittees were 
adjourned.]


=======================================================================




                            A P P E N D I X

                             July 28, 2010

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 28, 2010

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 28, 2010

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN

    Admiral Harvey. The Landing Helicopter Assault (LHA 1) Class 
Amphibious Assault Ship had a designed service life of 20 years as 
defined in the Performance Specifications for LHA 1 Class of March 
1969. Today, USS NASSAU (LHA 4) is 31 years old.
    U.S. Navy uses the Expected Service Life (ESL) of ships for long-
range ship planning, budget development, and force structure 
recapitalization planning. ESL is typically longer than the designed 
service life objective and is achieved through a technical assessment 
of the ship's material condition coupled with any necessary 
modernization. The ESL of the LHA 1 Class was established at 35 years 
per a 1986 Chief of Naval Operations memorandum and was supported by 
implementation of the LHA Mid-Life Upgrade Program. The LHA 1 Class 
technical assessment, conducted by operational and technical personnel 
(SEA 05, PMS 470 Program Office) as a result of an August 1997 INSURV 
report on USS NASSAU (LHA 4), validated the ship's degraded status. 
This one-time technical assessment was conducted across all ships of 
the class and resulted in development of the mid-life package to 
address known deficiencies. [See page 25.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 28, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Over the past several years, the Navy has concurrently 
taken several actions that have affected ship crews, including 
implementing reductions in manning on certain ship types, shifting to 
more computer-based training, and increasing mission requirements 
aboard ships. While the Navy's intention was to save costs and improve 
efficiencies, it appears that collectively these actions have affected 
ship readiness. However, based on GAO's analysis, the Balisle report, 
and other studies, it appears the Navy took these actions on a case-by-
case basis without sufficient analysis of the potential collective 
effect.
    As the Navy looks to the future, what steps will it take to ensure 
it considers the holistic effect of making changes to manning, 
training, and mission requirements on ship crews before implementing 
any adjustments?
    To what degree are the issues raised in the Balisle report being 
used as ``lessons learned'' as the Navy struggles to manage the strike 
fighter shortfall? How can we be assured that we will not see such an 
erosion of readiness in aviation as the Navy works to minimize the 
resources required to support legacy aircraft squadrons?
    Admiral Harvey. Our surface force is ready today. Operation UNIFIED 
RESPONSE (OUR), the Haitian earthquake relief effort, highlighted the 
readiness of the Fleet to respond to a significant, no-notice tasking. 
While OUR was not combat operations, the Fleet's response was also not 
the hallmark of an unready force. It is our overall readiness trends 
that are of concern. These trends (Board of Inspection and Survey 
trends, Casualty Report trends, ship's force maintenance backlogs, 
etc.) are the result of the cumulative impact of individual decisions 
made over the last two decades. The decisions made over the last two 
decades were based on detailed analysis under a specific set of 
assumptions about a future we can never predict with 100% accuracy. 
Feedback loops (readiness trends) are critically important to the Navy 
because they allow us to adjust the course of the Navy program based on 
reality (versus assumptions) in execution. We are doing this today with 
the surface force to prevent an unready force in the future, and have 
the same formal processes in place for our air and submarine 
communities.
    The feedback mechanisms in place for our aviation community are 
much more robust than in the surface community, which is why 
operational and material health trends have not degraded as 
significantly despite community challenges (e.g., strike fighter 
shortfalls, aging force). To prevent erosion of readiness that could 
result in an unready force in the future, Navy commits forces at a 
sustainable rate in the Global Force Management process; enforces 
established man, train, equip, and maintain standards; and monitors 
feedback loops, adjusting course in execution as required should 
resourcing/program decisions create negative readiness trends.
    Mr. Ortiz. For those ships with ballistic missile defense 
responsibilities, has the Navy included manpower requirements for this 
mission in its ship manning documents?
    Admiral Harvey. For FY10, Fleet accelerated PR-11 funding for 30 
Fire Controlmen (FCs) in support of Ballistic Missile Defense (BMD). 
Fleet also requested an additional 30 billets for ships that will 
possess a BMD capability in future years. These increases in BMD 
requirements will ensure the Navy can effectively accomplish the BMD 
mission aboard designated ships.
    Additional training requirements will also be necessary to support 
this increase in BMD manpower aboard BMD ships. Fleet has requested 54 
training instructors for Center for Surface Combat Systems (CSCS) 
Advanced Warfare Trainer (AWT), Afloat Training Group (ATG), and 
Tactical Training Group (TACTRAGRU). This BMD manpower addition 
provides the necessary capacity to execute advanced and integrated 
training in line with growth in BMD capabilities.
    Mr. Ortiz. In a recent report, GAO noted that in-port workloads 
have been increasing for Navy cruisers and destroyers, but based on a 
longstanding assumption, the Navy does not measure or evaluate in-port 
workload when determining the required crew sizes of its ships.
    What plans, if any, does the Navy have to adjust its methodology 
for determining the crewing requirements for it ships, or for verifying 
its assumptions concerning in-port workloads?
    Admiral Harvey. Navy determines shipboard manpower requirements 
utilizing at-sea wartime scenarios derived from each platform's 
Required Operational Capabilities/Projected Operating Environments 
(ROC/POE). In assessing workload as part of the optimal manning 
initiative, Navy used a long-held assumption that at-sea workload 
exceeds in-port workload requirements.
    In-port workload requirements are not guided by Condition I 
watchstanding (i.e., Battle Stations), but are impacted by additional 
requirements when in port, such as training, maintenance, supporting 
local security requirements and leave of absence.
    The Navy is reviewing military personnel manning assumptions and 
recognizes that the reduced crew size also impacted crew workload 
capacity both in-port and underway. At the same time the optimal 
manning initiative was reducing crew size and crew workload capacity, 
the organic intermediate maintenance support available from the 
Regional Maintenance Centers was also decreasing due to military billet 
reductions which shifted workload to the private sector. Consequently, 
Navy is looking closely at increasing manning levels both shipboard and 
at the regional maintenance centers to alleviate the maintenance burden 
when ships are in port.
    Mr. Ortiz. How did the consolidation of the ship intermediate 
maintenance activities into regional maintenance centers affect 1) the 
material assistance and support available to surface ships, and 2) the 
professional development opportunities available to shipboard personnel 
who are on shore duty between tours at sea?
    Admiral Harvey. Consolidation of maintenance activities 
(Intermediate and Depot) within geographic regions was a Navy decision 
made to gain efficiencies and reduce overhead. The consolidation in 
Norfolk specifically, diluted focus of the maintenance activity and 
resulted in a loss of focus on surface ship intermediate maintenance.
    Separately, but concurrently, all intermediate maintenance 
activities were subjected to manning reductions that eliminated shore 
Sailor billets as these requirements could be performed by DOD 
civilians or contractors, which resulted in a significant reduction of 
journeyman training opportunities for Sailors rotating ashore.
    Command, U.S. Fleet Forces Command, Commander, Pacific Fleet, and 
Naval Sea Systems Command implemented initiatives to restore shore 
billets at the Norfolk Ship Support Activity, South East Regional 
Maintenance Center, South West Regional Maintenance Center North West 
Regional Maintenance Center and Hawaii Regional Maintenance Center 
effective in FY2011. These additional billets will renew our commitment 
to a training continuum for Sailors to hone their craftsman skills 
while improving surface ship maintenance responsiveness and 
effectiveness such that the Fleet produces ships ready for tasking.
    Mr. Ortiz. Does the Navy plan to address the loss of both training 
opportunities and assistance and support available to ships caused by 
the consolidation of the ship intermediate maintenance activities into 
regional maintenance centers in 2004?
    Admiral Harvey. Yes. Consolidation of the ship intermediate 
maintenance activities into regional maintenance centers in 2004 was 
designed to combine three activities with waterfront support missions, 
Shore Intermediate Maintenance Activities, Fleet Technical Support 
Centers, and Repair Supervisors of Shipbuilding, into a single regional 
command that increased administrative efficiency by reducing duplicate 
overhead functions and provided a single point of contact for ship 
repair support. The consolidation did not impact waterfront military 
repair billets, however in 2006 a separate initiative substituted 
civilian personnel and contractors for 2,214 military billets (2,148 
active duty and 66 reserve full time support). At the time, it was 
thought that use of more capable depot level personnel would increase 
the overall efficiency of maintenance execution. In 2007, 126 of these 
military billets were bought back, resulting in an overall net of 2,088 
military billets reduced from this initiative.
    The Navy is in the process of reassessing those decisions and is 
developing a plan designed to optimize the responsiveness of waterfront 
shops and military personnel training opportunities while continuing to 
utilize the expertise of more capable, but remote depot shops. This 
review is expected to result in an increase in waterfront military 
repair billets. A separate initiative is working to revitalize the Navy 
Afloat Maintenance Training Strategy which is designed to ensure that 
personnel assigned to shore maintenance activities receive formalized 
training designed to lead to journeyman certification.
    Mr. Ortiz. In a recent report, the GAO recommended that the Navy 
address its lack of outcome-based performance measures for off-ship 
training programs by developing metrics to measure the impact of 
training on job performance, knowledge, skills, and abilities as they 
relate to occupational and watchstanding proficiency.
    What actions, if any, does the Navy plan to take to address this 
recommendation and develop the types of metrics outlined in the GAO 
report?
    Admiral Harvey. The Department of the Navy increased efforts to 
measure the impact of off-ship training on individual job performance, 
knowledge, skills, and abilities as they relate to occupational and 
watchstanding proficiency across the Surface Force by introducing a 
Surface Warfare Officer (SWO) qualification Log Book program, 
increasing the frequency of Level of Knowledge (LOK) exams, and re-
emphasizing the necessity to update the Training and Operational 
Readiness Information Services (TORIS) and the Navy Training Management 
and Planning System (NTMPS) data bases.
    The Surface Navy instituted a SWO Log Book pilot program, modeled 
after the Aviation Log Book program, to record all professional 
development evolutions for every officer which can then be used to help 
evaluate training impact to job performance, skills and abilities. The 
expectation is to refine and expand the program to include enlisted 
Sailors, providing data that can be used to measure factors affecting 
job performance. Additionally, every Sailor is required to take a LOK 
exam within the first three months of reporting on board and then again 
every quarter for the duration of their tour. All scores are maintained 
in the TORIS database which provides an output-based metric that 
training commands and the Chain of Command can use to help determine 
how off-ship and on-ship training affect the knowledge base of Sailors.
    Access to every Sailor's goals and progress of Personal 
Qualification Standards (PQS), warfare qualifications, watchstander 
qualifications, and off-ship and on-ship education is tracked and 
reported in NTMPS. In May 2010, Commanders, Naval Surface Force Pacific 
and Atlantic sent a joint message to the Surface Fleet outlining best 
practices for training and readiness. The message reinforced the 
necessity to properly document, in both TORIS and NTMPS, all training 
conducted because this documentation is necessary to understand how 
well training is conducted and what adjustments are needed to improve 
training in the future.
    Mr. Ortiz. GAO reported that the Navy instituted a number of 
changes but didn't have an evaluation strategy with metrics in place to 
inform itself of whether it was achieving desired results or to elicit 
info that might enable it to detect any unintended consequences.
    How does the Navy intend to evaluate the impact of any planned 
corrective actions?
    Admiral Harvey. Commander, U.S. Fleet Forces Command and Commander, 
U.S. Pacific Fleet measure and assess Fleet Readiness monthly and 
provide that assessment to CNO. Further, Navy Fleet Readiness is 
reflected in the Joint Forces Readiness Review which serves to inform 
the Department's Quarterly Readiness Report to Congress.
    Mr. Ortiz. Based on the findings of the Balisle report, the Navy 
plans to take a number of actions in many interrelated areas, such as 
training, maintenance, command and control, manning, etc. What's not 
clear, however, is who will be responsible for making sure the actions 
are coordinated and implemented. To avoid the problems of the past 
where the Navy wasn't looking at things holistically to see whether the 
changes it was making were compatible and did not have unintended 
consequences, the Navy will need to make accountability clear and have 
some kind of integration mechanism across the areas, whether it be one 
senior-level official who is the focal point supported by an 
interdisciplinary group or another approach.
    How does the Navy intend to proceed from here in taking corrective 
actions, including establishing leadership and organizational 
accountability?
    Admiral Harvey. To reaffirm my 28 July testimony, I am responsible 
and accountable for Fleet readiness. It is my responsibility to man 
ships with sufficient numbers of trained Sailors who are afforded 
adequate and recurring Fleet training to maintain their war fighting 
skills and to provide sufficient maintenance such that our ships and 
systems are fit to fight.
    I meet regularly with Commander, Pacific Fleet and our subordinate 
commanders to review and assess Fleet readiness to ensure Navy can 
deliver the forces ready for tasking that we have committed to 
delivering.
    With regards to the Fleet Readiness Panel for Surface Force 
Readiness specific recommendations, I have begun executing a plan of 
corrective actions to improve Surface Force Readiness. Both Surface 
Force Type Commanders are responsible and accountable to me for 
delivering the improvements in readiness that I and the panel 
identified.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
